<html>
<title> - *** ERRATA *** 61ST MEETING OF THE INTERNATIONAL WHALING COMMISSION (IWC) TO BE HELD IN MADEIRA, PORTUGAL JUNE 22-26, 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                             *** ERRATA ***
                          61ST MEETING OF THE
                         INTERNATIONAL WHALING
                      COMMISSION (IWC) TO BE HELD
                         IN MADEIRA, PORTUGAL
                           JUNE 22-26, 2009

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, May 20, 2009

                               __________

                           Serial No. 111-20

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                                  -----

                  U.S. GOVERNMENT PRINTING OFFICE
49-786                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                             *** ERRATA ***

This errata corrects the inadvertent omission of a letter 
  submitted for the record by the Makah Indian Tribe for the 
  hearing held by the Subcommittee on Insular Affairs, Oceans and 
  Wildlife on May 20, 2009. The letter has been added to the 
  Table of Contents and can be found on new pages 34 and 35.





                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 20, 2009..........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Brown, Hon. Henry E., Jr., a Representative in Congress from 
      the State of South Carolina................................     3
        Prepared statement of....................................     4
    Young, Hon. Don, the Representative in Congress for the State 
      of Alaska..................................................    25
        Prepared statement of....................................    26

Statement of Witnesses:
    Baker, C. Scott, Associate Director, Marine Mammal Institute, 
      and Professor, Department of Fisheries and Wildlife, Oregon 
      State University...........................................    13
        Prepared statement of....................................    15
    Block, Kitty, Vice President, Humane Society International...     9
        Prepared statement of....................................    11
    Hogarth, William T., Ph.D., U.S. Commissioner, International 
      Whaling Commission.........................................     4
        Prepared statement of....................................     6

Additional materials supplied:
    Makah Indian Tribe, Statement submitted for the record.......    34
    Sutley, Nancy, Chair, Council on Environmental Quality, and 
      Dr. Jane Lubchenco, Administrator, National Oceanic and 
      Atmospheric Administration, Statement submitted for the 
      record.....................................................    35


      

                                   34

    The hearing record will be held open for 10 days for these 
responses. Again, I want to thank the members of the panel for 
being here. I think we have learned a great deal, and we will 
continue to investigate, and hopefully something will come of 
all of this as we proceed forward. So if there is no further 
business before the Subcommittee, the Chairwoman again thanks 
the Members of the Subcommittee and our witnesses. The 
Subcommittee stands adjourned.
    [Whereupon, at 2:12 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]

      Statement submitted for the record by the Makah Indian Tribe

    The Makah Indian Tribe has a documented 1500-year history of 
whaling in the waters adjacent to its home on the most northwestern 
part of the contiguous United States in Washington State. The Tribe's 
subsistence culture--both past and present--relies heavily on whales 
and the other abundant resources of the marine environment. Whaling is 
also fundamental to Makahs' identity and social framework and is 
reflected in song, dance, art and ceremonies.
    The vital importance of whaling led the Tribe to insist that it be 
guaranteed the right to continue harvesting these animals in its usual 
and accustomed waters when it negotiated a land cession treaty with the 
United States in 1855. As a result, the Treaty of Neah Bay, 12 Stat. 
939 (1855), is the only treaty between the United States and an Indian 
tribe that expressly secures the right to hunt whales. That right 
continues, undiminished, to the present.
    Despite the treaty guarantee, the Tribe voluntarily ceased whaling 
in the 1920s because of the overexploitation of gray whales by non-
Indian commercial whaling operations. This decision was a direct 
consequence of both the mis-management of the resource by non-Indians 
and the Tribe's conservation values. Being dependant on its natural 
resources, the Tribe has always sought to live in harmony with the 
marine environment and utilize these resources sustainably.
    When the gray whale was successfully removed from Endangered 
Species Act protection in the mid-1990s, the Tribe engaged in the 
complex international and domestic legal framework that had developed 
since it last harvested whales seven decades earlier. The Tribe worked 
closely with the United States delegation to the IWC to obtain an 
aboriginal subsistence whaling quota for the Eastern North Pacific 
(ENP) stock of gray whales. In 1997, the IWC approved a joint quota for 
ENP gray whales for the United States and the Russian Federation, which 
had long obtained quotas for use by the Chukotkan Natives of far 
northeastern Russia. Through a bilateral agreement with the Russian 
Federation, the United States was allocated 20 gray whales over a five-
year period for use by the Makah.
    In 1999, following authorization under domestic law, the Tribe 
successfully hunted a gray whale. The hunt was immensely significant 
for the Tribe as the culmination of years of effort to renew the 
Makahs' ceremonial and subsistence whaling tradition. The tribal 
community widely supported the hunt and participated in the community 
celebration and sharing of whale meat and blubber that followed. The 
rigorous training and spiritual preparation of the whaling crew also 
provided a focal point and positive connection to tribal history and 
cultural for these individuals and their families.
    Since 2000, two lawsuits under domestic law have prevented further 
Makah whaling. These lawsuits involved challenges to the Government's 
compliance with the National Environmental Policy Act and the 
requirement of the Tribe and the Government to comply with the Marine 
Mammal Protection Act (MMPA). Although the Tribe strongly disagrees 
with the ruling that it must obtain a waiver of the MMPA's take 
moratorium prior to undertaking a ceremonial and subsistence hunt, in 
February 2005 the Tribe initiated the waiver process by submitting a 
waiver request to NOAA. In the past four years, the Tribe has provided 
NOAA with information necessary for the agency to prepare an 
environmental impact statement (EIS) and to determine whether to waive 
the take moratorium. A draft EIS was published and made available for 
public comment in 2008.
    Although the domestic and international processes necessary to 
resume treaty whaling are complex and time consuming, the Tribe remains 
committed to following these processes through to their completion and 
has devoted substantial resources toward this end. Subsequent to the 
initial five-year quota approved by the IWC in 1997, the Tribe has 
coordinated with the United States IWC delegation and NOAA
      

?

                                   35

to successfully secure renewals of the joint quota with the Russian 
Federation in 2002 and 2007. The Tribe is also actively supporting the 
preparation of the EIS and the ongoing MMPA waiver process.
    The Tribe is actively engaged in the IWC process and the current 
effort to evaluate the future of this organization and develop a 
consensus on ``the way forward.'' The Tribe is concerned that the 
increasing polarization of the IWC in recent years will adversely 
impact future efforts of the United States to secure aboriginal 
subsistence whaling quotas and the corresponding ability of the Tribe 
to exercise its treaty-protected whaling rights. Unfortunately, it was 
only a few years ago when issues at the center of the current dispute 
over the future of the IWC resulted in the unjust (albeit temporary) 
denial of an aboriginal whaling quota.
    The Makah Indian Tribe urges the Subcommittee and Committee, 
Congress and the United States to continue support for the joint gray 
whale quota with the Russian Federation and for Makah treaty-reserved 
whaling rights. The Tribe also urges the United States to strive to 
preserve an international forum where all nations may come to resolve 
whale conservation and scientific issues, including the limited, 
scientifically based subsistence harvest of whales by aboriginal 
peoples.
                                 ______
                                 

 Statement submitted for the record by Nancy Sutley, Chair, Council on 
Environmental Quality, and Dr. Jane Lubchenco, Administrator, National 
                 Oceanic and Atmospheric Administration

    We have submitted this written statement to the Subcommittee in 
order to respond to the request that the Obama Administration provide 
its views on the upcoming 61st annual meeting of the International 
Whaling Commission.
    The Obama Administration began while the Future of the IWC process 
was well underway. The Administration fully understands the 
complexities of, and concerns regarding, this process and the key 
issues facing the IWC. The Administration has asked the current United 
States Commissioner, Dr. William Hogarth to hold over in his post 
through the June annual meeting so that he can remain Chairman of the 
Commission, a position that he holds as an individual. We appreciate 
Dr. Hogarth's leadership as both U.S. Commissioner and IWC Chair and 
his success at bringing a respectful level of discourse among the IWC 
members as they discuss the difficult issues facing the IWC. We expect 
the President to appoint a new U.S. Commissioner to replace Dr. Hogarth 
following the end of this year's IWC meeting.
    As we have stated earlier, the Administration would like to see the 
International Whaling Commission (IWC) serve as the premier 
international forum to resolve current and emerging whale conservation 
issues and coordinate critical research. In this context, conservation 
of whales is of the utmost priority to the Obama Administration. Most 
importantly, the United States continues to view the commercial whaling 
moratorium as a necessary conservation measure because the abundance of 
most whale stocks are either too unknown, too low, or still recovering, 
and there is not yet an effective, comprehensive conservation scheme 
for whales that will guarantee their survival.
    The Administration also strongly opposes lethal scientific whaling 
and considers it unnecessary in modern whale conservation management, 
and believes that the use of objections, reservations and an expansive 
interpretation of Article VIII (special permit scientific whaling) 
undermine the moratorium and the institution. The Administration 
moreover has significant concerns over the recent resumption of 
international trade of whale meat with imports by Japan, and exports by 
Iceland and Norway.
    Nevertheless, the Administration is committed to furthering 
discussions of critical issues within the IWC because it is important 
for the IWC to function effectively. The IWC should be a model for 
international cooperation on the conservation and use of a shared 
global resource. It is important for us now to try to find common 
ground among IWC members, which are many of the same nations with whom 
we need to cooperate on even more urgent international environmental 
matters. However, we reserve judgment on various proposals regarding a 
way forward on the IWC until discussions are completed, which, in our 
view must occur before the annual meeting in 2010. The time to resolve 
these issues is now. It is our view that any resolution of outstanding 
issues, to be acceptable, must result in a significant improvement in 
the conservation status of whales and be based on sound science.
    In closing, the failure to resolve these issues is not an 
acceptable outcome to the United States. We intend to use the 
Administration's influence to achieve a resolution by 2010 that will 
ensure the long-term functioning of the IWC, and greater protections 
for the world's great whales.

                                 <all>

</pre></body></html>
